LISTING OF EVIDENCE ATTACHED
Exhibit 1 - Chapter on FIBROMYALGIA from Harrison's Textbook
of Internal Medicine, edition 19, ca. 2017
Exhibit 2 - GEOSPATIAL EFFECT of Ohio, parts of Kentucky and
parts of W. Virginia - as shown from Cleveland, OH
and Cincinnati, OH with Weather Forecast Radar Map
Exhibit 3 - Report to CDC of Tick Borne New Disease:
Fibromyalgia (Scioto)

-2238

,fibromyalgia
,Leslie J. Crofford
DEFINITION

,Fibromyalgia (FM) is characterized by chronic widespread musculoskeletal pain and tenderness. Although FM is defined primarily as
a pain syndrome, patients also commonly report associated neuropsychological symptoms of fatigue, unrefreshing sleep, cognitive
dysfuncticin, anxiety, and depression. Patients with FM have an
increased prevalence of other syndromes associated with pain and
fatigue, including chronic fatigue syndrome (Chap. 464e), temporomandibular disorder, chronic headaches, irritable bowel syndrorne,
interstitial cystitis/painful bladder syndrome, and other pelvic pain
syndromes. Available evidence implicates the, central nervous system
as key to maintaining pain and other core symptoms of FM and related
conditions. The presence of FM is associated with substantial negative
consequences for physical and social functioning.

Immune-Mediated,
Inflammatory,

siapios!a )!Elojolewnaqi pue

EPIDEMIOLOGY

In clinical settings, a diagnosis of FM is made in -2% of the
population and is far more common in women than in men,
with a ratio of -9:1. However, in population-based survey
studies worldwide, the prevalence rate is --2-5%, with a female-to-male
ratio of only 2-3:1 and with some variability depending on the method
of ascertainment. The prevalence data are similar across socioeconomic classes. Cultural factors may play a role in determining whether
patients with FM symptoms seek medical attention; however, even in
cultures in which secondary gain is not expected to play a significant
role, the prevalence of FM remains in this range.
CLINICAL MANIFESTATIONS
Pain and Tenderness At presentation, patients with FM most commonly report "pain all over." These patients have pain that is typically
both above and below the waist on both sides of the body and involves
the axial skeleton (neck, back, or chest). The pain attributable to FM is
poorly localized, difficult to ignore, severe in its intensity, and associated with a reduced functional capacity. For a diagnosis of FM, pain

Page 2238-1

EXHIBIT 1

Low cervical:
anterior aspects
of the intertransverse
spaces at C5-C7

suboccipital
muscle
insertions
Trapezius:
midpoint of the
upper border

Second rib:
second
costochondral
junctions

Supraspinatus:
above the medial
border of the
scapular spine

Lateral epicondyle:
2 cm distal to the
epicondyles

Gluteal:
upper outer
quadrants of
buttocks

Knee:
medial fat pad
proximal to the
joint line

Greater trochanter:
posterior to the
trochanteric
prominence

FIGURE 396-1 Tender-point assessment in patients with fibromyalgia.
(Figure created using data from F Wolfe et al: Arthritis Care Res 62:600, 2010.)

Page 2238-2

EXHIBIT 1

should have been present most of the day on most days for at least
3 months.
The clinical pain of FM is associated with increased evoked pain
sensitivity. In clinical practice, this elevated sensitivity may be determined by a tender-point examination in which the examiner uses the
thumbnail to exert pressure of —4 kg/m2 (or the amount of pressure
leading to blanching of the tip of the thumbnail) on well-defined musculotendinous sites (Fig. 396-1). Previously, the classification criteria
of the American College of Rheumatology required that 11 of 18 sites
be perceived as painful for a diagnosis of FM. In practice, tenderness
is a continuous variable, and strict application of a categorical threshold for diagnostic specifics is not necessary. Newer criteria eliminate
the need for tender points and focus instead on clinical symptoms
of widespread pain and neuropsychological symptoms. The newer
criteria perform well in a clinical setting in comparison to the older,
tender-point criteria. However, it appears that when the new criteria
are applied to populations, the result is an increase in prevalence of FM
and a change in the sex ratio (see "Epidemiology," earlier).
Patients with FM often have peripheral pain generators that are
thought to serve as triggers for the more widespread pain attributed
to central nervous system factors. Potential pain generators such as
arthritis, bursitis, tendinitis, neuropathies, and other inflammatory or
degenerative conditions should be identified by history and physical
examination. More subtle pain generators may include joint hypermobility and scoliosis. In addition, patients may have chronic myalgias
triggered by infectious, metabolic, or psychiatric conditions that can
also serve as triggers for the development of FM. These conditions are
often identified in the differential diagnosis of patients with FM, and
a major challenge is to distinguish the ongoing activity of a triggering
condition from FM that is occurring as a consequence of a comorbid
condition and that should itself be treated.
Neuropsychological Symptoms In addition to widespread pain, FM
patients typically report fatigue, stiffness, sleep disturbance, cognitive
dysfunction, anxiety, and depression. These symptoms are present to
varying degrees in most FM patients but are not present in every patient
or at all times in a given patient. Relative to pain, such symptoms may,
however, have an equal or even greater impact on function and quality
of life. Fatigue is highly prevalent in patients under primary care who
ultimately are diagnosed with FM. Pain, stiffness, and fatigue often

Page 2238-3

Exhibit 1

are worsened by exercise or unaccustomed activity (postexertional
malaise). The sleep complaints include difficulty falling asleep, difficulty staying asleep, and early-morning awakening. Regardless of the
specific complaint, patients awake feeling unrefreshed. Patients with
FM may meet criteria for restless legs syndrome and sleep-disordered
breathing; frank sleep apnea can also be documented. Cognitive issues
are characterized as slowness in processing, difficulties with attention or concentration, problems with word retrieval, and short-term
memory loss. Studies have demonstrated altered cognitive function
in these domains in patients with FM, though speed of processing is
age-appropriate. Symptoms of anxiety and depression are common,
and the lifetime prevalence of mood disorders in patients with FM
approaches 80%. Although depression is neither necessary nor sufficient for the diagnosis of FM, it is important to screen for major
depressive disorders by querying for depressed mood and anhedonia.
Analysis of genetic factors that are likely to predispose to FM reveals
shared neurobiologic pathways with mood disorders, providing the
basis for comorbidity (see later in this chapter),
Oveiiapping Syndromes Because FM can overlap in presentation with
other chronic pain conditions, review of systems often reveals headaches, facial/jaw pain, regional myofascial pain particularly involving
the neck or back, and arthritis. Visceral pain involving the gastrointestinal tract, bladder, and pelvic or perineal region is often present
as well. Patients may or may not meet defined criteria for specific
syndromes. It is important for patients to understand that shared pathways may mediate symptoms and that treatment strategies effective for
one condition may help with global symptom management.

Page 2239-1

Exhibit 1

Comorbid Conditions FM is often comorbid with chronic musculoskeletal, infectious, metabolic, or psychiatric conditions. Whereas FM
affects only 2-5% of the general population, it occurs in 20% or more
of patients with degenerative or inflammatory rheumatic disorders,
likely because these conditions serve as peripheral pain generators to
alter central pain-processing pathways. Similarly, chronic infectious,
metabolic, or psychiatric diseases associated with musculoskeletal pain
can mimic FM and/or serve as a trigger for the development of FM. It
is particularly important for clinicians to be sensitive to pain management of these comorbid conditions so that when FM emerges—characterized by pain outside the boundaries of what could reasonably be
explained by the triggering condition, development of neuropsycho.
logical. symptoms, or tenderness on physical examination--treatment
of central pain processes will be undertaken as opposed to a continued
focus on treatment of peripheral or inflammatory causes of pain.
Psychosocial Considerations Symptoms of FM often have their onset
and are exacerbated during periods of high-level real or perceived
stress. This pattern may reflect an interaction among central stress
physiology, vigilance or anxiety, and central pain-processing pathways. An understanding of current psychosocial stressors will aid in
patient management, as many factors that exacerbate symptoms cannot be addressed by pharmacologic approaches. Furthermore, there
is a high prevalence of exposure to previous interpersonal and other
forms of violence in patients with FM and related conditions. If posttraumatic stress disorder is an issue, the clinician should be aware of it
and consider treatment options.
Functional Impairment It is crucial to evaluate the impact of FM
symptoms on function and role fulfillment. In defining the success of a
management strategy, improved function is a key measure. Functional
assessment should include physical, mental, and social domains. A
recognition of the ways in which role functioning falls short will be
helpful in the establishment of treatment goals.
DIFFERENTIAL DIAGNOSIS
Because musculoskeletal pain is such a common complaint, the differential diagnosis of FM is broad. Tabie 396-4 lists some of the more
common conditions that should be considered. Patients with inflammatory causes for widespread pain should be identifiable on the basis
of specific history, physical findings, and laboratory or radiographic
tests.

Page 2239-2

Exhibit 1

COMMON CONDITIONS IN THE DIFFERENTIAL DIAGNOSIS OF
FIBROMYALGIA

2239

Inflammatory
Polymyalgia rheumatica
Inflammatory arthritis: rheumatoid arthritis, spondyloarthritides
Connective tissue diseases: systemic lupus erythematosus, Sjogren's
syndrome
Infectious
Hepatitis C
HIV infection
Lyme disease
Parvovirus B19 infection
Epstein-Barr virus infection
Noninflammatory
Degenerative joint/spine/disk.disease
Myofascial pain syndromes
Bursitis, tendinitis, repetitive strain injuries
Endocrine
Hypo- or hyperthyroidism
Hyperparathyroidism
Neurologic Diseases
Multiple sclerosis
.Neuropathic pain syndromes
Psychiatric Disease
Major depressive disorder
Drugs
Statins

9

Aromatase inhibitors

un

Page 2239-3

Exhibit 2

LABORATORY OR RADIOGRAPHIC TESTING
Routine laboratory and radiographic tests yield normal results in FM.
Thus diagnostic testing is focused on exclusion of other diagnoses and
evaluation for pain generators or comorbid conditions (T-,--JA
Most patients with new chronic widespread pain should be assessed for
the most common entities in the differential diagnosis: Radiographic
testing should be used sparingly and only for diagnosis of inflammatory arthritis. After the patient has been evaluated thoroughly,
repeat testing is discouraged unless the symptom complex changes.
Particularly to be discouraged is advanced imaging (MRI) of the spine
unless there are features suggesting inflammatory spine disease or
neurologic symptoms.
GENETICS AND PHYSIOLOGY
-1
1,-,
As in most complex diseases, it is likely that a number of genes
te, contribute to vulnerability to the development of FM. To date,
:14-4 these genes appear to be in pathways controlling pain and stress
LABORATORY AND RADIOGRAPHIC TESTING IN PATIENTS WITH
FIBROMYALGIA SYMPTOMS
Routine
Erythrocyte sedimentation rate (ESR) or C-reactive protein (CRP)
Complete blood count (CBC)
Thyroid-stimulating hormone (TSH)

Guided by History and Physical Examination
Complete metabolic panel
Antinuclear antibody (ANA)
Anti-SSA (anti—Sjogren's syndrome A) and anti-SSB
Rheumatoid factor and anti—cyclic citrullinated peptide (anti-CCP)
Creatine phosphokinase (CPK)
Viral and bacterial serologies
Spine and joint radiographs
Source: LM Arnold et al: J Women's Health 21:231, 2012; MA Fitzcharles et al: J Rheumatol
40:1388, 2013.

Page 2239-4

Exhibit 1

2240 responses. Some of the genetic underpinnings of FM are shared across
other chronic pain conditions. Genes associated with metabolism,
transport, and receptors of serotonin and other monoamines have
been implicated in FM and overlapping conditions. Genes associated
with other pathways involved in pain transmission have also been
described as vulnerability factors for FM. Taken together, the pathways
in which polymorphisms have been identified in FM patients further
implicate central factors in mediation of the physiology that leads to
the clinical manifestations of FM.
Psychophysical testing of patients with FM has demonstrated
altered sensory afferent pain processing and impaired descending
noxious inhibitory control leading to hyperalgesia and allodynia.
Functional MRI and other research imaging procedures clearly demonstrate activation of the brain regions involved in the experience of
pain in response to stimuli that are innocuous in study participants
without FM. Pain perception in FM patients is influenced by the
emotional and cognitive dimensions, such as catastrophizing and perceptions of control, providing a solid basis for recommendations for
cognitive and behavioral treatment strategies.

Page 2240-1

Exhibit 1

APPROACH TO THE PATIENT:

Fibromyalgia

and Rheurnatologic Disorders
Inflammatory,
Immune-Mediated,

FM is common and has an extraordinary impact on the patient's
function and health-related quality of life. However, its symptoms
and impact can be managed effectively by physicians and other
health professionals. Developing a partnership with patients is
essential for improving the outcome of FM, with a goal of understanding the factors involved, implementing a treatment strategy,
and choosing appropriate nonpharmacologic and pharmacologic
treatments.

FIBRONIYALGIA
NONPHARMACOLOGIC TREATMENT

Patients with chronic pain, fatigue, and other neuropsychological
symptoms require a framework for understanding the symptoms
that have such an important impact on their function and quality of
life. Explaining the genetics, triggers, and physiology of FM can be
an important adjunct in relieving associated anxiety and in reducing
the overall cost of health care resources. In addition, patients must
be educated regarding expectations for treatment. The physician
should focus on improved function and quality of life rather than
elimination of pain. Illness behaviors, such as frequent physician
visits, should be discouraged and behaviors that focus on improved
function strongly encouraged.
Treatment strategies should include physical conditioning, with
encouragement to begin at low levels of aerobic exercise and to
proceed with slow but consistent advancement. Patients who
have been physically inactive or who report postexertional malaise
may do best in supervised or water-based programs at the start.
Activities that promote improved physical function with relaxation,
such as yoga and Tai Chi, may also be helpful. Strength training may
be recommended after patients reach their aerobic goals. Exercise
programs are helpful in reducing tenderness and enhancing selfefficacy. Cognitive-behavioral strategies to improve sleep hygiene
and reduce illness behaviors can also be helpful in management.

Page 2240-2

Exhibit 1

PHARMACOLOGIC APPROACHES
It is essential for the clinician to treat any comorbid triggering condi-

tion and to clearly delineate for the patient the treatment goals for
each medication. For example, glucocorticoids or nonsteroidal antiinflammatory drugs may be useful for management of inflammatory
triggers but are not effective against FM-related symptoms. At present,
the treatment approaches that have proved most successful in FM
patients target afferent or descending pain pathways. Table 396-3 lists
the drugs with demonstrated effectiveness. It should be emphasized
strongly that opioid analgesics are to be avoided in patients with FM.
These agents have no demonstrated efficacy in FM and are associated
with opioid-induced hyperalgesia that can worsen both symptoms and
function. Use of single agents to treat multiple symptom domains is
strongly encouraged. For example, if a patient's symptom complex is
dominated by pain and sleep disturbance, use of an agent that exerts
both analgesic and sleep-promoting effects is desirable. These agents
include sedating antidepressants such as amitriptyline and alpha-2delta ligands such as gabapentin and pregabalin. For patients whose
pain is associated with fatigue, anxiety, or depression, drugs that have
both analgesic and antidepressant/anxiolytic effects, such as duloxetine or milnacipran, may be the best first choice.

PHARMACOLOGIC AGENTS EFFECTIVE FOR TREATMENT OF
FIBROMYALGIA
Antidepressants: balanced serotonin—norepinephrine reuptake
inhibitors
Amitryptiline°
Duloxetineb•c
Milnacipranb,c
Anticonvulsants: ligands of the alpha-2-delta subunit of voltage-gated
calcium channels
Gabapentin
. Pregabalinb
°RA Moore et al: Cochrane Database Syst Rev 12:CD008242, 2012. °Approved by the U.S.
Food and Drug Administration. `W Hauser et al: Cochrane Database Syst Rev 1: CD010292,
2013.

Source: LM Arnold: Arthritis Rheum 56:1336, 2007.

Page 2240-3

Exhibit 1

Combined geospatial effect of Ohio,(as seen from Cleveland)
and Ohio, Kentucky and W. Virginia (as seen from Cincinnati) on
TV Doppler radar weather map.- hand drawing

Ohio - 2 eyes, 2 cheeks
Kentucky - solid belt going south from Ohio's Eastern Plate
W. Virginia - Western part displayed on TV is covered
In Ohio geospatial effect is the same as RMSF distribution and Oxycodone use
per capits.
Geospatial effect is caused by topography and vegetation.

Lucas Co ---

-Trumbul Co.

0-H I 0

.,
\, %%-

Western
,,,
APlateau

Eastern
Plateau
. -• .- .

vyi

.4 ,Portsmouth.
„...
--,

c

t.

-

--Y"

Eastern Kentuck y

'

Western W. Virginia'

.

f

4. ,
foIr.

-

,/Jack on
',.

Evidence # 2

DEPARTMENT OF HEALTH 6. HUMAN SERVICES
Centers for Disease Control
and Prevention (CDC)
Atlanta, Georgia 30333
Use for: Spotted fever rickettsiosis (SFR) including Rocky Mountain spotted fever (RMSF),
Ehrlichiosis (E; chaffeensis, E. ewingii, & undet.), and Anaplasmosis (A. phagocytophilum & undel).
I
Visit http://www.cdc_gov and use "Search" for complete Case Definitios)
n( or
11
11
I
visit the disease web site(s) for a fillable/downloadable PDF version of this Case Report.
L... {,a)

Tick-Borne Rickettsia! Disease Case Report

CDC#

Date submitted:

04/14/2011

(mmicid/yyyy)

(9-12)
17-8)
p-6)
Physician's
Christopher Stegawski
name:

NETSS ID No.: (if reported)

1. State of residence:

Phone
no -

i

1

2. County of residence: tea so)

(04-25)

,

--1

1..... _3

Site (19.21)

3. Zip code:

State (22-23)

(51-29) 4. Sex: too)

44145..

History of travel outside county of residence within 30 clays of onset of symptoms?:

6. Race:
mai 1

3

2DEhrlichiosis - E. chaffeensisa

9. Was a clinically compatible illness present? if Mere a tic Presence «cmaatitness. mot nes Is nol cast

7. Hispanic 1
ethnicity: 2

Yes
No

(70)

917
3Not specified

Anaplasmosis - A. phagocytophilum

90 Unk
Ehrlichiosis/Anaplasmosis Undetermined

5

Ehrlichiosis - E. ewingii

10. Date of Onset of Symptoms:

08/15/2010

ifZjYES 20NO Spunk
YES

Male 9 QUnk
2Q Female

9 Unk

P2)

Clinical evidence - fever and one or more of the following: rash (primarily SFR), headache,
myalgia, anemia, leukopenia (Ehrlich, &Anaplas.), thrombocytopenia, or elevated hepatic transaminases,
Eschar (aka Cache noire) or black, necrotic area around site of known/possible tick bite present?

11. Was an underlying immunosuppressive condition present? tat)

2EINO

sElPacific Islander

3 LJAlaskan

SFR (including RMSF)

S. Indicate Disease (Presumed)To Be Reported: mil

WIVES

rnAmerican Indian
Native
Black 4nAsian
White

2

DYES

440 781 6240

1
;--1 1
7......_.L.,...i...

L__i_...,..1 ._.
...x_ _1_._1
,.. _
ease ID (13-1a)

Cuyahoga

Postal
abrv:

......
Form Approved
OMB 09.20-0009

20110

(mm/adtyyyy)

(73.60)

a link

12. Specify any life-threatening complications in the clinical course of illness: (82)

211NO 90Unk

Specify condition(s):

iDAduIt respiratory distress syndrome (ARDS)

aQMeningitis/encephalitis

2DDisseminated intravascular coagulopathy (DI(

4E1Renal failure

9. None

80 Other:
13. Was the patient hospitalized because of this illness? (83) (If yes, date)

E]YES

20N° 9 Unk

14. Did the patient die because of this illness?/94 (If yes, date)

OYES

(1111111d(WYYY)
(04-85) (8637)

(08-91)

Unk

City:

State:

Below, indicate Y (Yes) or N (No), ONLY if the test or procedure was performed.
COLLECTION DATE (nInlidelYYY)

16
Serologic

Serology 1
(106.8)
Positive?

Titer

IFA - IgG

) i

(

IFA -IgM
test:

YES 2 gNO (117)

(_ __

) i

YES

2

NI N 0 ille)

(

) 1

A YES

2

NO (131)

021.130

COLLECTION DATE (mm/ddlyyyy)

Titer
( .

(109 V) (111-12)
(113-16)
Positive?
) i IYES 2

( --- —

) 1

(

(97-100)

Zip:

-______

Lack of selection indicates that the test or procedure was not performed.

Serology 2*

(101-2) (103.4)

Tests

(mmiddryyyy)
f93-94) (95•96)

15. Name of
laboratory:

Other

2 ENO 9

NO pit,

YES 211 NO on)

EYES 2QNO (132)

17. Other Diagnostic Test?
Positive?

(LISeit 15.SlfcrailatencLte)

PCR

1

Morulae visualization*

lOYES

2

NO (134

Immunostain

1 *YES

2

NO p am

Culture

1

2

NI N 0 036

YES

YES

2 1N0 033

* Visualization of more ae not applicable for SFR.

* Was there a fourfold change in antibody titer between the two serum specimens? 1 OYES 2 NO flan

is. Classify case BASED ON the CDC case definition (see criteria below):
135)
SFR (including RMSF)

Id

2

hrlichiosis

State Health Department Official who reviewed this report:
(140)

chaffeensis

aDAnaplasmosis -A. phagocytophilum 4 QEhdichiosis - Eewingir

1 ['CONFIRMED

sahrlichiosis/Anaplasmosis - Undetermined

2

PROBABLE

Name:

Title:

Date:

1155 -1431

CCIMMENTS: ThiS

(nuniddiywy)

is a case of new disease (rickettsia/) which presents as fibromyalgia (Scioto) and responded to antibiotic

Confirmed SFR (including RMSF): A clinically compatible case with evidence of a fourfold change

Confirmed Ehrlichiosis/Anaplasmosis: A clinically compatible case with evidence of a fourfold
in NG antibody titer reactive with Rickettsia rickeltsii ar other SFR antigens by IFA between paired serum
specimens, one taken during the first weak of fitness and a second 2-4 weeks later, OR detection of R. rickettsia; change In 19C antibody titer reactive with Ehrtichia chaffeertsis or Anaplasma phagocytophilum antigen try
or otter SFR Df1A in a clinical specimen via amplification of a specific target by PCR assay. OR demonstration of WA between paired serum specimens (one taken during the first week of Illness rind a second 2-4 weeks later)
OR detection of E. chalfeertsis or A. phagocytophilem DNA in a clinical specimen via amplification of
SFR antigen in a biopsy/autopsy specimen by INC, OR isolation of R. rickettsia or other SFR species from a
specific target by PCH assay, OR demonstration of Oldie:Jai or anaplasmal antigen in a bibspyinlitOpsy
clinical specimen in cell culture.
specimen by MD, OR isolation of E. ckaffeensis a r A. pirzgocytapAiltimir am a clinical specimen in cell culture.
Probable SFR (including RMSF): A clinically compatible case with evidence of elevated 109 or
19M antibody reactive with R. railrensiior other SFR antigens by IFA, enzyme-linked immunosarbent assay (ELISA),
Probable Ehrlichiosis/Anaplasmosis: A clinically compatible case with evidence of elevated Igli
dot-ELISA, or Men agglutination (CDC rises en IFA IgG cutoff of 21:64 and does not use lght test results as
or IgM antibody reactive with E. dm I teensis or A. ptragocytoptagn antigen by IFA, enzyme-linked imminnosarbent
independent clognostic support criteria.).
assay (ELISA), dot-ELISA or assays in other formats (CDC uses an IFA 196 cutoff of L-1:64 and does not use igril
Note: Current commercially available ELISA tests cannot evaluate changes in antibody titer. WM tests may be
test results as independent diagnostic support criteria.), oR identification of rriondae in the cytoplasm of monocytes
unreliable because they lack speceicity. IgM antibody may persist for lengthy periods of lime. When sera
or
macrophages (Ehrfichiokis) or in the cytoplasm of nentrophgs or eosinophils (Anaplasmosis) by microscopic
demonstrate elevated antibody responses to multiple infectious agents among rickettsial species and between
ehrlIchl and umpteen-RI species, the pater antibody response is generally directed at the actual agent Involved. examination.
Public reporting burden of this collection of information is estimated to average I0 minutes per response. An agency may not conduct or sponsor, and a person is not required to respond In,
a collection clinformation unless it displays a currently valid OMB control number. Please send comments regarding this burden estimate or anyether aspect of this collodion of iniermatinn,
including sungnstions for reducing this burden, to CDC/ATSDR RepOrtS Clearance Officer; 1600 Clifton Rd., NE (MS D-74); Atlanta, GA 30333; ATTN: PRA (0920-0009).
CDC 55.1 (E), Poised October 2009, CDC Adobe Acrobat 9.1.3. Electronic Version, October 2009
TICK-BORNE RICKETTSIAS DISEASE CASE REPORT
2nd COPY- CDC

Exhibit # 3

No. 20-7438

IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER STEGAWSKI - PETITIONER
VS,

UNITED STATES OF AMERICA - RESPONDENT

ON PETITION FOR A WRIT OF NEWLY DISCOVERED EVIDENCE MOTION
FIBROMYALGIA SCIOTO IN FEDERAL LITIGATION
THE SUPREME COURT OF THE UNITED STATES Denial of Certiorari

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

CHRISTOPHER STEGAWSKI, pro se
REG. 58010-060
FCI Satellite Camp
P.O.Box 6001, Ashland, KY 41105

TABLE OF AUTHORITIES CITED
CASES
Page
1 --- U.S. v Purdue Frederick, 495 F Supp 2d 569, 576 (WD VA July 23,
2007)
2 --- 2018 U.S. Dist Lexis 24994, Frazier v Berryhill, Feb 1, 2018
4th Dist
2 --- 2014 U.S. Dist Lexis 182497, White v Colvin, Sep 3 2014, 4th Dist
2 --- 2012 U.S. Dist Lexis 127 615 Pennington v Astrue, Feb 8 2012,
4th Dist
4 --- 798 Fed Appx 34, 2020 US App Lexis 8385, Marquardt v Saul,
7th Cir
5 ---.Julie Heimeshoff v Hartford Life 571 US 99 (2013)
7 --- 2010 U.S. Dist Lexis 55875, Reel v Astrue, March 2 2010, 4th Dist
7 --- 2010 US Dist Lexis 83043, Davis v Astrue, Jan 28 2010, 4th Dist
7 --- 632 F.3d 860, DuPerry v Life INS, Jan 24 2011, 4th Cir
7 --- 2020 US Dist Lexis 8624, Maria D v Saul, May 15 2020, 9th Dist

RULES
1 --- FRCvP 60(b)(2)

IN THE SUPREME COURT OF THE UNITED STATES

CHRISTOPHER STEGAWSKI
Petitioner-Defendant

UNITED STATES OF AMERICA
Respondent-Plaintiff

)
)
)
)
)
)
)
)
)

Case No. 20-7438

NEWLY DISCOVERED EVIDENCE MOTION
FIBROMYALGIA SCIOTO IN FEDERAL
LITIGATION

)

Petitioner Christopher Stegawski, prisoner pro se in forma pauperis
is bringing instant Motion under FRCvP Rule 60(b)(2) to supplement
Petition for Certiorari Rehearing.
The evidence was discovered about August 2020 prompted by
denial of §2255 Motion with among others conclusion that Petitioner
was not using long acting Oxycontin "as reputable physicians" did.
Petitioner conducted search for a case contradictory to above
statement , Federal Lawsuit against Purdue Pharma for prOmoting
more dangerous Oxycontin to physicians. That case is:
495 F.Supp 2d 569, 576 (WD VA July 23, 2007) US v Purdue Frederick
Co. At the time case settled with payment over 500 millions $, the
same Plaintiff filed case against Petitioner, i.a. for not using
Oxycontin. Both using and not using Oxycontin was cause of prosecution. Plaintiff obliged to act in the face of massive opiates
use was taking any action stemming from the fact: cause of massive
opiates use was unknown.
Searching for more cases under "oxycontin" and "fibromyalgia"
in the 4th Circuit Petitioner found many cases like:
-1-

RECEIVED
MAY 2 5 2021
OFFICE OF TH CLERK
SUPREME COURT, U.S.

IN THE SUPREME COURT OF THE UNITED STATES

Case No. 20-7438

CHRISTOPHER STEGAWSKI
Petitioner-Defendant

NEWLY DISCOVERED EVIDENCE MOTION
FIBROMYALGIA SCIOTO IN FEDERAL

UNITED STATES OF AMERICA
Respondent-Plaintiff

LITIGATION

Petitioner Christopher Stegawski, prisoner pro se in forma pauperis
is bringing instant Motion under FRCvP Rule 60(b)(2) to supplement
Petition for Certiorari Rehearing.
The evidence was discovered about August 2020 prompted by
denial of §2255 Motion with among others conclusion that Petitioner
was not using long acting Oxycontin "as reputable physicians" did.
Petitioner conducted search for a case contradictory to above
statement , Federal Lawsuit against Purdue Pharma for promoting
more-dangerous Oxycontin to physicians. That case is:
495 F.Supp 2d 569, 576 (WD VA July 23, 2007) US v Purdue Frederick
Co. At the time case settled with payment over 500 millions $, the
same Plaintiff filed case against Petitioner, i.a. for not using
Oxycontin. Both using and not using Oxycontin was cause of prosecution. Plaintiff obliged to act in the face of massive opiates
use was taking any action stemming from the fact: cause of massive
opiates use was unknown.
Searching for more cases under "oxycontin" and "fibromyalgia"
th Circuit Petitioner found many cases like:
in the 4
-1-

2018 US Dist Lexis 24994 Frazier v Berryhill Feb 1, 2018, 4thDist
th Dist
2014 US Dist Lexis 182497 White v Colvin Sep 3 2014, 4
th
2012 US Dist Lexis 127615 Pennington v Astrue Feb 8, 2012, 4 Dist
The defendants in those cases are commissaries of Social
Security and cases are for denial of disability coverage.
(above cases came from search "oxycontin" "fibromyalgia"
"zanaflex" - terms associated with chronic pain treatment).

Surprising in those cases was meticulous description by
Magistrate Judges of health problems patients had and consistent
with Petitioner's description of Fibromyalgia scioto.
People of all ages
too sick to work --- unable to cope with their disease --- not sick
enough for disability.
Typical history is:
Years of various forms of chronic pain, incapable of physical
work, easily tired and exhausted, additional anxiety, panic
disorder, depression, peripheral neuralgia, headaches, insomnia,
memory impairment.
Treated by "twenty doctors", with "fifty medications", including
opiates, BZDZs, antidepressants, having invasive pain treatments;
and nothing works.
On each visit presenting different, new symptoms. Because of
changing complaints and not remembering suspected of malingering,
there is something "wrong with his/her head", sent to psychiatrist
because the symptoms don't make sense.
Treating physicians and conducting evaluations for disability
have "credible doubts about his report of pain or other symptoms"

(in Lawrence v Berryhill), diagnosing "total somatic dysfunction"
(in translation: whole body malfunction)- Dr. Pellegrino, leading
expert on fibromyalgia. And ALJ "did not adequately evaluate the
medical opinion. Just because every doctor has different opinion,
including Petitioner, who never before confronted so many unused
diagnoses. Number of diagnoses and symptoms is staggering. But
patients tell "my whole body hurts".
The pleio- [or pleo] -morphic disease, changing shapes like
chameleon colors, multisymptoms disease with transient
presentation.

Petitioner prepared two tables:
FIBROMYALGIA in Federal litigation - search on Lexis Law Library
about August 10, 2020
+
Search for: fibromyalgia AND Oxycodone (Oxy) or Oxycontin (TIN) or Percocet (CET)
District

Fibromyalgia

+0xy

+TIN

+CET

I

1991-Present

755

14

9

30

II

2007-Present

1175

37

21

59

III

2005-Present

1088

48

27

63

IV

2012-Present

1500

56

24

71

V

2012-Present

446

10

6

12

VI

2013-Present

1808

44

26

120

VII

2005-Present

1537

38

34

72

VIII

2012-Present

1284

77

29

94

IX

2014-Present

2307

100

25

80

X

2000-Present

1259

23

16

25

XI

2012-Present

1144

32

13

37

DC

Prior-Present
Total

46
14349

0

14.349 people appealed denial of disability to District Courts
in last periods. Search by fibromyalgia and Oxycodone, Oxycontin
or Percocet. About 10% of people with fibromyalgia also use oxycodone
in various forms.
In second table Sixth and Ninth Districts with highest numbers
of cases are evaluated in all available on Lexis periods.
District

Period

Fibromyalgia

+0xy

+TIN

+CET

6th

2013-Present

1808

44

26

120

6th

2004-2012

1165

12

27

43

6th

Prior-2004

92

0

0

1

9th

2014-Present

2307

100

25

80

9th

2011-2013

892

24

17

22

9th

2007-2010

506

15

12

20

9th

1995-2006

173

0

1

1

9th

Prior-1994

0

0

0

3

6th Cir. 2004 - 2012 (8 years) - 1165 cases
2013 - 2020 (7 years) - 1808 cases
9th Cir 2007 - 2013 (6 years) - 1398 cases
2014 - 2020 (6 years) - 2307 cases
It shows increases about 50% between the periods. There is
correlation between increases of fibromyalgia cases and increased
use of all forms of oxycodone reflecting "opiate epidemic",

There were cases in Courts of Appeals, like :
798 Fed Appx 34, 2020 US app Lexis 8385, Marquardt v Saul, 7thCir

-4-

That case originated as:
17-cv-1489 7thDist
Symptoms were frequent fatigue, memory loss, ADD - causing fatigue,
cognitive impairment. And SLE- systemic lupus erythematodes.
Petitioner's comment:"ADD causing fatigue". My perception that
ADD is sign of Central Nervous System involvement-CNS, and fatigue
is due to muscle disease caused by the same factor: chronic
bacterial infection.
Other: SLE is rare autoimmune disease, it's reporting seems to be
more frequent with fibromyalgia, also reported as autoimmune disease.
There seems to be something to be discovered in this association
with fibromyalgia scioto.
Patient's report: take morning walk...return home "to get as
much done as I can before my entire cognitive shuts down, and I
lose the' rest of my day".
That is consistent with Petitioner's observation that
attention span, mental exhaustion after short time goes along with
physical fatigue and muscle pain - the signs of systemic bacterial
infection.

Sofar is only one case in Supreme Court:
Julie Heimeshoff v Hartford Life, 571 US 99 (2013)
denial of disability benefits
patient diagnosis: fibromyalgia + SLE
Both diseases considered incurable, autoimmune.
Autoimmune means: suddenly without apparent reason immune system
loses identification of its body immune antigenecity, something
-5-

to transplant rejection (i.e."host v transplant") and "transplant
v host" immune system loses recognition of own tissue,' what was
encoded in embryonal or neonatal stage and protects the body from
self destruction by immune system attacking it's own tissues.
Intracellular bacteria find the way to get in and stay within
the cells protected by cellular membrane from gammaglobulins and
immune cells. Intracellular diseases were diagnosed by looking
under microscope at stained blood smears for inclusions in white
cells or for malaria causing_ Plasmodium vivax in erythrocytes.
Then came Medicare and ruled that first blood culture has to
be done for bacteria to multiply and smear looked at after bacterial
growth. But intracellular bacteria don't grow on standard media
(food). Possibly it was a reason why Lyme disease was not discovered
till 1980 and fibromyalgia became autoimmune disease.
Petitioner was not able to have blood smear done on his own
blood pretrial because no hospital would do it because of Medicare
regulation. Lyme disease and RMSF are diagnosed by PCR technigue
like COVID-19 virus.

In 2010 and 2011 descriptions of fibromyalgia were simple:
"fibromyalgia" - "musculoskeletal impairments"
(2010 US Dist Lexis 55875 Reel v Astrue March 2, 2010) 4th Dist
"fibromyalgia - tender points" and "myofascial pain syndrome"
(2010 US Dist Lexis 83043 Davis v Astrue Jan 28 2010)4th Dist
"Fibromyalgia - rheumatic disease, symptoms: significant pain,
fatigue, tenderness, stiffness of joints, sleep disturbed"
Diagnosed by 7/18 tender points
(632 F.3d 860 DuPerry v Life INS Jan 24 2011 4th Cir).

Nowadays description in 4th Cir is more complex than
in description in Harrison's Textbook of Internal Medicine,
Evidence # 1,
Recently Fibromyalgia became recognized as separate disease
and got code M79,7 Fibromyalgia (Sep 30, 2019)
"fibromyalgia is diagnosed 'entirely on the basis of patient's
reports of pain and other symptoms', "there is no laboratory test
to confirm the diagnosis"
(2020 US Dist- Lexis 86424 Maria D.0 v Saul, May 15, 2020 9th Dist)
Previously as 729.1 - Myalgia and myositis, unspecified)
Petitioner reading descriptions from 9th Cir. noticed difference
from 4th Cir. Either it's just impression or there might be difference
in symptoms between East and West Coast.

Validity of evidence
Government expressed doubt as to validity of Petitioner
discovery of the disease. Following is brief analysis:
10 - Petitioner started diagnosing set of similar symptoms among
patients in Fall 2010, not before. Several patients were describing
-7-

similar symptoms. Petitioner referred 2-3 patinents to rheumatologist to confirm diagnosis, but it coincided with separation
from Callihans. Were patients reports because of new infections,
activation previous infection or the finishing of Xanax tapering
what made patients more lucid and talkative, is unclear.
2° - Retrospectively many patients were presenting on and off
same symptoms during entire year of observation.
3° - Petitioner after "summer malaise" that suggested mild RMSF
developed slowly symptoms of fibromyalgia like patients had. It
was during firs year of living in Southern Ohio, epicenter of
opiate use.
4° - Petitioner took one course of antibiotic. Symptoms went
away and relapsed month later.
5° - Published by Ohio Department of Health presentation on
Opiate Epidemic contained 5 maps, one looked familiar. Looking
again at distribution of RMSF in Ohio Petitioner noticed that
both maps opiate use and distribution of RMSF are identical.
This observation has very high evidentiary value - conclusion
is that tick disease like RMSF leads to massive opiates use..
That was in 2012.
6? - In 2014 Petitioner noticed that background of Doppler weather
map looks the same as distribution of RMSF and opiate use. The
picture imlies that it shows tick habitat.
7° - Finding 14,000 disability cases of people with symptoMs of
the disease applies for disability and uses opiates for pain.
give highly reliable evidence of existence of the disease and
association with significarit paIn
-8-

Attached is evidence # 2 with distribution of
geospatial effect in Ohio, Kentucky and W.Virginia. Map is
hand drawingof radar TV weather map shown in Cleveland
and Cincinnati.

Christopher Stegawski
58010-060
FCI Sattelite Camp
P 0 Box 6001, Ashland, KY 41105
July 5, 2021
Clerk of Supreme Court
First Street NE
Washington, DC 20543

Re: Petition for Rehearing
No 20-7438

Dear Sir,
I mailed Petition for Rehearing few days ago by certified mail.
Enclosed are Tables of authorities, index to Newly Discovered
Evidence and trade names of medications.
Please attache these to the Petition.
Also enclosed is typed version of Petition for Certiorari which
was already denied, just in case as it is easier to read.
Sincerely,

ChristopY
r ek-Stegawski

RECEIVED
JUL 14 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

TABLE OF AUTHORITIES CITED
CASES
U.S. v MOORE 423 U.S. 122 (1975) --- page 9

STATUTES AND RULES
FRE - Rule 701, 702 --- page 8
page 8

8th Amendment
§823

page 12

§829

Page 12

§841

page 12, 13

§2255

page 9

§3568(e), §3583(d)

page9

Case-in-chief documents
District Court
1:12-CR-00054-2 Doc # 141, Expert Dr. Gronbach Testimony
page 8, 9, 11, 12, 13
Doc # 130, Jury instructions ---- page 12
Doc # 167, Motion for Reconsideration --- page 6
Court of Appeals
15-4363 Doc # 50, Appeal Opinion --- page 9
District Court
1:19-CV-00428 Doc # 1, §2255 Motion --- page 9

Medications listed on page 2240-3
GENERIC AND TRADE NAMES

Amitryptiline
Duloxetine - Cymbalta
Milnacipran - Savella

Gabapentin - Neurontin
Pregabalin - Lyrica

Exhibit 1

TABLE OF AUTHORITIES CITED
CASES
Page
1 --- U.S. v Purdue Frederick, 495 F Supp 2d 569, 576 (WD VA July 23,
2007)
2 --- 2018 U.S. Dist Lexis 24994, Frazier v Berryhill, Feb 1, 2018
4th Dist
2 --- 2014 U.S. Dist Lexis 182497, White v Colvin, Sep 3 2014, 4th Dist
2 --- 2012 U.S. Dist Lexis 127 615 Pennington v Astrue, Feb 8 2012,
4th Dist
4 --- 798 Fed Appx 34, 2020 US App Lexis 8385, Marquardt v Saul,
7th Cir
5 --- Julie Heimeshoff v Hartford Life 571 US 99 (2013)
7 --- 2010 U.S. Dist Lexis 55875; Reel v Astrue, March 2 2010, 4th Dist
7 --- 2010 US Dist Lexis 83043, Davis v Astrue, Jan 28 2010, 4th Dist
7 --- 632 F.3d 860, DuPerry v Life INS, Jan 24 2011, 4th Cir
7 --- 2020 US Dist Lexis 8624, Maria D v Saul, May 15 2020, 9th Dist

RULES
1 --- FRCvP 60(b)(2)

INDEX
to NEWLY DISCOVERED EVIDENCE MOTION
FIBROMYALGIA SCIOTO IN FEDERAL LITIGATION
Page
1 - Federal Lawsuit agaJ

Cey,kontid:

1 - Federal Lawsuit aga
1 - Cause of massive op:
1 - Search on. LexisNex:
shows cases for den.
2 - Typical fibromyalgi
3 - Table 1: 14,349 Dis

5 - Example of Appeal C

-„o op,s

A/60,

4 - Table 2: Increase o
o

f

,

,k ot,

5 - Fibromyalgia and SLI
6 - intracellular bacte
7 - Changing descriptio
7 - ICD-10 code M79.7

Validity of Evidence of
7 - 1° - Diagnosis of F
8 - 2° - Changing prese
8 - 3° - Summer malaise
8 - 4°6 - Response to antibiotic
8 - 5° - Maps of oxycodone use and RMSF
8 - 6° - Geospatial effect shows tick habitat
8 - 7° - 14,000 disability Federal cases
9 - Map of geospatial effect in OH, KY, WV

Scioto

IN THE UNITED STATES SUPREME COURT

CHRISTOPHER STEGAWSKI
Petitioner

UNITED STATES OF AMERICA
Respondent

)
)
)
)
)
)
)
)
)
)

Case No. 20-7438
Typed copy of the
PETITION FOR CERTIORARI
- replacement for hand
written original

Christopher Stegawski, Petitioner pro se, provides typewritten
copy of previously filed Petition for Certiorari.
Due to COVID-19 lockdown and restrictions, some of which
are still in effect, Petitioner was able only to prepare handwritten version.
Copy has addition of few sentences on page 40 and few
insignificant stylistic corrections.
Sincerely,

Christopher Stegawski, pro se
58010-060
FCI Satellite Camp
POBox 6001
Ashland, KY 41105

Cerificate of Service
A copy of this filing is provided to U.S. Attorney Office together
with Petition for Rehearing
Christopher St gawski

June 10, 2021

STATEMENT OF THE CASE

NEST] oWS

EY

1LIJ1A1

9

STATEMENT OF THE CASE.

QUESTIONS EXPLAINED

Q#1 - When pain of more than three months duration becomes
chronic pain (by Ohio definition) and dependence (ie. addiction) forms
after three months of opiate treatment (by Ohio definition) does it J
make all chronic pain treatment prescribing to addicts; what closes
legal window for chronic pain treatment?
On first day of chronic pain the patient becomes also addicted.
Explanation:
Everyone (100%) of patients taking opiates for longer time (by
definition - 3 months in Ohio) becomes dependent on opiates and has
withdrawal symptoms if abruptly deprived. (Ground 49, §2255 Motion, and Exhibit,
FDA Statement April 9, 2019).
If dependence is defined as addiction or part of it, that makes 100%
of chronic pain patients addicted to opiates; and as prosecutors claim
addicted patient is an addict,and addict is §802-Addict; than all
chronic pain tx - treatment becomes prescribing to addicts, according
-4-

TABLE OF AUTHORITIES CITED
CASES
Arny v U.S.,137 F Supp 3d 981 6th Dist
.Castro v U.S., 540 U.S. 375 (2003)

Page
34

. .

22

Moskal v U.S., 498 U.S. 103, 107-8 (1990)

10

Strickland v Washington, 466 U.S. 668, 689

27

U.S. v Kirk, 584 F.2d 773, 784 6th Cir (1978)

10

U.S. v Moore, 423 U.S. 122 (1975)

12, 16, 39

U.S. v Purdue Frederic, 495 F Supp 2d, 569 (2007) 4th Dist 25, 26
U.S. v Volkman, 736 F.3d 1013 (2013) 6th Cir

10

STATUTES AND RULES
FRCRP Rule 43

18 USC 1956(h), 1957
18 USCS 3563(e)

39
Part II, Chapter 227, B-Probation . . 32

3583(d)

D-Imprisonment . 32 •

18 USC 2255

21 USCS 801
21 USCS 802

6, 8, 11, 38

21 USCS 841

39

21 USCS 846

17, 39

21 USCS 856

39

21 CFR 1306.04

10, 11, 12, 13, 15, 17

28 Motion 2255

-3.1-

Doc 1 §2255 Motion, case 1:19-CV-00428
Ground # 20 - Addicts, witness Steele testimony
# 22 - Requested to leave courtroom

Question #2
Question' #5

# 26, 27, 29 - Ineffective Assistance of Counsel
# 36 - Moore (1975) comparison

12

# 37 - Conspiracy
# 38 - §801
# 39 - §802
# 40 - §841
# 45 - Probability of being
treated by incompetent physician

7, 40

FDA Statement, April 9, 2019 - Statement by Douglas Throckmorton, M.D.
on new opioid analgesic labeling changes...how to
properly taper patients who are physically dependent
on opioids

4, 32

to federal law illegal and every physician who prescribes opiates for
chronic pain violates the law.
With such interpretation even government medical expert, Dr. Gronbach,
testifying at Petitioner's trial commits the same "crime" as Petitioner, since
he is prescribing opiates for chronic pain and all his patients are
dependent on opiates(1).
Prosecution for dependence (part of addictio0 is prosecution for
property of medications; when every patient develops dependence, prosecution
for dependence becomes "closing the window of chronic pain treatment".
Opiates are used despite causing addiction, because there is nothing known
equally effective in pain tx. Addiction is caused by presence of opiates,
no matter how prescribed and in what dose, taken as prescribed or irregularly.
It is somewhat similar to allergy, although it is not immune response(2)
-5FN (1) - see page 27
FN (2) - see page 6

Footnotes:
(2)

During testimony at trial (transcript p.63 and following) Petitioner

presented his concept that opiates interfere with our instinct function
by creating harmful, instinct-like a QUASI-INSTINCT that is devoid of
life supporting. Our instincts give us withdrawal symptoms, like hunger
and thirst, opiates do too. That may be the reason why it is so difficult
to abstain from opiates. Opiates work through opiate receptors, which are
endorphines.receptors , part of brain's hormonal system, controlling instinct
and hedonism. GiV-ing prednisone for longer time causes adrenal atrophy
and require lifetime substitution; does atrophy of endorphines system affect
patients.' ability to stay off opiates? - is unanswered question by science.
The history of judge Baumgartner from Tennessee is a reminder that
opiate addiction is a subcortical function, stronger than education and will.
Petitioner did not get that far in his clinical practice to answer this
question: shall patients coming of opiates be treated like §802-Addicts?
The answered question is: Xanax is not addictive, just requires 8-10 months
to taper.
-6-

Footnotes: [to page 15, and page 16]
Ground 45 of §2255 Motion has calculation of: "Probability of being
treated by incompetent physician". For 8 physicians in a row probability
is billion times smaller than probability of DNA being wrong.
That implies that systemic error is a reason for physicians prosecution.

"A controversy existed for fifty years" - that was 45 years ago.
-7-

Q#2 - Is chronic pain patient a §802-Addict and
chronic pain treatment prescribing to addicts, and
.
shall chronic pain treatment and prescribing to addicts
be prosecuted the same way?
Explanation:
"in interpretation of a criminal statute subject to the rule
of lenity the U.S. Supreme Court cannot give the text a meaning n:
that is different from its' ordinary, accepted meaning, and that
disfavors the defendant".
(Moskal v. U.S., 498 US 103, 107-8 (1990))
In common language, term addiction describes both dependence and psychological
addiction, person suffering from addiction is an addict, person using street
drugs and medical opiates is an addict, drug seeker (deprived of opiates) is
also an addict. In medicine addiction has been divided into: 1° - dependence,
giving need to take next dose and causing acute withdrawal and 2° -8-

psychological addiction causing cravings and leading to relapses.
"Addiction syndrome" - is genetic tendency to become addicted psychologically;
person addicted to one substance has 7 times higher

.11:

i

probability to become addicted to the next substance; common
substances are: alcohol, nicotine, opiates including heroin. About
20% of population has addiction syndrome, 100% - will develop
dependence. Petitioner's perception is that persons with addiction
syndrome will have more problems during addiction treatment and more
relapses than other 80% of people, but they will be majority of
patients undergoing addiction treatment.
Among petitioner's patients about 98-99% patients were also
nicotine smokers (and all patients-witnesses testifying who were asked).
Kentucky that has one of the highest rates of smoking at 35%
also is one of the states having highest opiate use for pain.
-9-

r

Federal law is based on classic, common language understanding
of addict and addiction; medical division into dependence andpsychological addiction is mot reflected in federal law. Person taking '
opiates is addicted and addicted person is an addict. And person deprived
opiates is an addict.
Federal law does not recognize pain, chronic pain and chronic
pain treatment; there is no pain and pain treatment. There is only
Legitimate Medical Purpose of §1306.04, that is not defined, but undergoes
case-by-case analysis, (in 736 F.3d 1013 U.S. v Volkman, 6th Cir 2013).
"we have endorsed a broad approach to determining what conduct falls outside
the accepted bounds of professional practice so as to constitute a CSA
violation, eschewing a preestablished list of prohibited acts in favor of
a case-by-case approach"
(see U.S. v Kirk 584 f.2d 773, 784 6th Cir 1978)
Prosecution used the difference between common language meaning
of addiction/addict and medical division of addiction into dependence
and addiction in witness Steele testimony. Prosecutor asked her
-10-

if patients, who's name he red from the list and she confirmed
for each one that he is (in 2015, not in 2010) an addict, because he
had withdrawal symptoms. These patients were not available as
witnesses for confrontation. This way lay witness gave common
language of word addict as medical diagnosis of addiction, but
it only indicated that those patients were dependent. Prosecutor used
this as bait-n-switch to conclude that all patients were addicts
and Petitioner was prescribing to addicts, meaning §802-Addicts.
When pain is disregarded, with the absence of Federal Chronic
Pain Treatment Law, all use of opiates for chronic pain becomes
treating patients without Legitimate Medical Purpose, ie. prescribing
to addicts. With all chronic pain patients developing dependence
all chronic pain treatment becomes illegal, because of using
common language word "addiction" to describe "medical dependence";
chronic pain treatment window becomes shut.
-11-

Steele testimony is Ground 20 of the §2255 Motion.
Ground 36 is comparision of
Moore (1975) - case of providing freely methadone to
heroine addicted people
with
case-in-chief - Stegawski (2015) - tapering of multimedication
treatment of chronic pain that resulted in elimination of
overdose mortality, while opiates (oxycodone) were restricted
to below textbook daily dose for chronic pain of
240 mg. Multiple physicians treating the same patients
for years before and after Petitioner by issuing prescriptions
certified that patients had Legitimate Medical Purpose
(indications) for such treatment.
Unexpected was discovery'of Fibromyalgia scioto, tick
transmitted disease that causes chronic pain.
-12-

Q#3 - Is retroactive denial of Legitimate Medical Purpose, instead
of prospective approval, a(cause for, prosecution ,tifi physicians
treating chronic pain and reason for Prettyman and Katzenbach
Commissions failure?
Explanation:
After years of going to several doctors for chronic pain
treatment a new doctor has difficulty to establish history of
treatment. All previous records were seized by law enforcement
including initial letter from another specialist indicating need
for treatment for chronic pain. Indication for treatment is difficult
to reconstruct. Patient taking Xanax for years does not have
good recollection.
Creation of commissionqualifying patient for chronic pain treatment,
like SSA disability, evaluating patient for opiate and, other
controlled substances treatment would give physician permission
-13-

to prescribe medications. At the same time Guardian for
Medications, a family member, could be established to help patient
administer medications and alert physicians to problems patients don't
disclose. Qualification would be like a credit card patient can show
to a doctor, pharmacist, law enforcement. Record of it can be kept
with PMP - Prescription Monitoring Program )like OARRS in Ohio)
and be accessible to members of qualifying commission (physician,
pharmacist, DEA, State Medical and Pharmacy Boards, social worker,
Patient's Medication Guardian).
Petitioner got this idea when realizing that we trust patients more
than doctors. Doctors are prohibited from prescribing controlled,
addictive substances for themselves, but patients have full, unlimited
authority and access to their medications. Family members don't
have rights to supervise the patients, to give early warning that
-14-

things are not going right.
Petitioner was prosecuted for prescribing to addicts, when patients
were receiving medications previously prescribed by several other physicians(3)
and three other physicians in the same office: Dr. Woodward, Dr. Lee
and Dr. Khan, before, concurrently and after Petitioner, all four certifying
by issuing prescriptions' for the same controlled substances, a Legitimate
Medical Purpose, indication for treatment, their names and copies of
prescriptions in the charts.
Despite this prosecutors brought lay witness, Steele, to testify that
patients were addicts, what government expert witness, Dr. Gronbach, did
not confirm. Prosecutors used lay witness testimony to provide medical
diagnosis of addiction.
With prior approval from Treatment Qualifying Commission wrongful
prosecution for Lack of LMP would not be possible.
-15-

FN (3) - see page 7

Prettyman and Katzenbach Commissions were to establish
a way to protect physicians from wrongful prosecutions
for using opiate treatment, and allow them to prescribe
without fear (U.S. v MWore, 423 US 122, 143-144, [10])(4).
Prospective qualification of patient for treatment, that DEA
and law enforcement can contest ahead of treatment would
meet the goal of above commissions.
Patients would benefit by not being exposed to abrupt
deprivation and inability to find another physician.
-16-

FN (4) - see page 7

Q#4 - Is chronic pain treatment a §846-Conspiracy or §1306.04
Usual Course of Medical [Professional] Practice; why enter illegal
conspiracy when Legitimate Practice offers authorized physician all
the benefits without legal hurdle?
Why would Petitioner knowingly and intentionally join conspiracy when
Petitioner could knowingly and intentionally conduct all activities
he conducted based on authorization coming from Ohio Medical and
DEA licenses without the risks of conspiracy?
Explanation:
Indictment charged Petitioner with §846-Conspiracy. Prosecution
did not establish need to join conspiracy or benefit from it.
Prosecutor Parker objected when defense attorney Cheselka asked Petitioner
about conspiracy and Cheselka quit asking.
Jury did not find Petitioner guilty of conspiracy. District Court added
§846-Conspiracy to the sentence.
-17-

Conspiracy to exist has to be clandestine; is conducted in secrecy, usually
conducted without leaving a record. Petitioner:
- obtained DEA, license,,for,every.office address he, worked at
- kept all records of purthases, distributions and prescriptions to end users
- all medications were accounted for, inventory was conducted daily (required
every 2 years), there was not one pill missing
Petitioner as first customer of distributor, PTL, arranged and conducted
sending report to OARRS of all dispensing, like pharmacies do
- registered as Limited Liability Co. with the State of Ohio
used business checking account for business activity only
- answered codefendant's Callihan question: Why did you start sending information
about distributions to OARRS, DEA will know about it?, with: I want them to
know what I am doing!
(Conspiracy is Ground 37 of §2255 Motion)
-18-

Q#5 - Did District Court err by not addressing Petitioner's involuntary
removal from Courtroom for presentation of evidence session and
did Court of Appeals err by not checking the record in the de novo review,
when District Court in denial of Ground #22 of §2255 Motion stated
that record indicates that Petitioner was present, but did not indicate
where in the record to find it? Shall the case be remanded for
new trial based on FRCrP Rule 43 violation?
Explanation:
Defendant was ordered by defense counsel Cheselka to leave the
courtroom for presentation of evidence session. Counsel's explanation was
that defendant in criminal case may not know evidence against himself.
Defendant stayed in the hallway of the court during the session.
Defendant was not told what happened during the session and his
requests for transcripts from trial were denied by District Court.
Defense counsel never spent time with Defendant to learn the
-19-

content of patient charts and where in the charts to find information.
Defendant's charts contain information that contradicts claims of improper
or deficient patient's care made by prosecution during trial.
If present during the session Petitioner would have told defense counsel
or objected himself to incorrect prosecutors presentation.
Prosecutors had trial strategy: when patients-witnesses testified their
charts were not available; when expert Gronbach testified about alleged
abnormalities in charts, patients were not available for confrontation.
When witness Steele declared patients to be addicts neither their charts
nor patients themselves were available for confrontation. When witness
Elliot testified of taking 35 pills daily, her chart was not available,
neither she was cross examined what kind of pills those were or where
she was getting pills from, because Petitioner would not prescribe that many
opiate pills; she was taking methadone and Petitioner initiated rotation
-20-

out of methadone.
Strategy of not having charts with the patients had purpose of
avoiding controversies, preventing correction by defense of evidentiary errors
or patient testimonies.
Appeal defense counsel, Wettle, did not raise the issue on appeal
and did not inform Petitioner about Rule 43.
Without knowing what transpired during session and being unable
to obtain transcripts Petitioner is unable to asses how prejudicial
removal from courtroom was.
Issue was raised as Ground #22 in §2255 Motion.
-21-

Q#6 - Did Court of Appeals err by condoning District Court's
recharacterization of 3 Motions as "first" §2255 Motion and another
recharacterization of actual §2255 Motion as "second", "futile", "amended"
§2255 Motion (without party's motion to amend), and declaring that
any error was harmless" because District Court "ultimately denied
all claims"?
While Clerk of Court. docketed disposition of motions without indicating
recharacterization. The case became "off docket" denial of two
recharacterized §2255 Motions. (Castro v United States, 540 US 375 (2003)).
Petitioner filed Motion to merge Rule 33 Motion and amended Motion
into his §2255 Motion as new evidence Claims corresponded with
trial Grounds of §2255 Motion in order to avoid "already adjudicated"
confusion of "new" and "old" evidence.
-22-

District Court recharacterized Motions #216 (Discovery), # 227 (Rule 33
newely discovered evidence), #228 (amendment to rule 33 newely discovered evidence)
as "first" §2255 Motion and denied it. Next day Clerk of Court
after having docketed denial of "first" §2255 Motion as Doc
# 230 11/15/2019 Motions # 216, # 227, # 228,
-23-

# 229 05/20/2019 Motion to Merge renamed 11/15/2019 as Motion
to Amend/ Correct.
Petitioner filed two (# 232 and # 233) Motions for Reconsideration
according to Rule 59(e) which both were docketed on 12/23/19.
Petitioner also filed Notice of Appeal for denial of Motions
# 216, 227, 228, 229 in both civil and criminal case.
Petitioner's §2255 Motion, named by District Court second §2255
Motion was denied in civil case 1:19-cv-00428 as Doc # 5
12/06/19 as futile amendment to §2255 Motion, without Petitioner
asking for recharacterization. District Court explained
that if first recharacterization was in error, it was
harmless error because both motions and all Grounds
were ultimately denied.
It appeared to petitioner that all Motions, Newly
-24-

Discovered Evidence and §2255 Motions were denied
in order to justify all recharacterizations and made
error harmless.
District Court also denied COA and Court of Appeals
also denied COA.
Newly Discovered Evidence Motions (# 227, 228) were denied
as §2255 Motion giving as reason failure to raise it
at trial and direct appeal.
One of the Newly Discovered Evidence claims was addressing
prosecution of Petitioner for using short acting Oxycodone, not
as respectable physicians using Oxycontin, and prosecuting
Purdue Pharma in National Opiate Litigation for promoting
use of Oxycontin. It was both way prosecution: Petitioner
for using Oxycodone, not Oxycontin and Purdue Pharma for
promoting unsafe Oxycontin use to physicians.
-25-

It was reversible argument in petitioner's case, because
Oxycontin is causing more overdoses than Oxycodone. In
Motion for Reconsideration after denial of New Trial (Doc # 167)
Petitioner enclosed medical publication indicating that
introduction of Oxycontin in Toronto, Canada lead to ,

r-i

doubling of overdose mortality.
During Petitioner's trial medical expert Dr. Gronbach was
also blaiming Petitioner for not using Oxycontin.
Petitioner requested to merge "new evidence" and "old" trial
evidence because it prevented litigation of same issues twice.
District Court denied "new" evidence claims on §2255 Rules and
then denied corresponding Grounds because those were already
denied in the "first" 2255 Motion.
-26-

FOOTNOTES
(1)

Prosecutors accused Petitioner of recommending for an expert physicians

who were convicted for doing the same defendant was doing (Appeal, Doc # 50,
p.1)- "by inviting convicted doctors to vouch for Stegawski's issuance of opiate
prescriptions", p.5 - "All Stegawski gave his attorney was ... a list of doctors who
had been convicted and are doing time in federal prisons... We break no
new ground in holding that it is a 'sound trial strategy', Strickland 466 U.S. at 689,
for a criminal defense lawyer to resist putting an expert on the stand
who was convicted for doing what the defendant was indicted for doing"
p.8 - "it's safe to say that, when [defense attorney] Cheselka refused to hire
doctors because of their previous convictions for similar offenses..."
In instant case prosecutors have hired an expert who was doing the same
defendant was doing, "a kettle was blaiming the pot". Even worse, Dr.
Gronbach was starting opiate treatments, Petitioner was only accepting patients who
were for years receiving opiates and tapering their medications.
-27-

STATEMENT OF THE CASE

Federal chronic pain treatment law
When cancer pain treatment became introduced it turned into
overwhelming success. When chronic pain treatment State Laws
were legislated in 1990s the difference was noted: cancer
patients life expectancy was not as important as pain relief;
chronic pain patients life expectancy became longer with elimination
of Hemingway's solution, and expectation for life expectation became
70 for 20 years old. Unexplained was rapid increase in people using
opiates for pain, with clustering of the cases; for law enforcement
it was obvious, the crime, the criminal minds of doctors and
their patients, but unlike post-Vietnam, this time epidemic crossed
all socio-economic barriers. Another point was added by CDC researcher,
the per capita use of opiates between low and high state was
10 times.
-28-

Petitioner getting involved in November 2009, experienced for
30 years in iv. opiate administration with BZDZs-benzodiazepines
and newer "conscious sedation", when every patient goes to sleep,
and has no recollection and some going through apnea and
giving consideration to published increasing overdose mortality, decided
to lower medications, starting with BZDZs, which are not pain
medications, give withdrawal seizures and impair memory. So
Petitioner initiated tapering of Xanax and Valium as fast as
patients allowed; BZDZ withdrawal gives aggressiveness, nervousness,
insomnia. Patients on Valium were protesting, but switch to Xanax
allowed withdrawal. Tapering all patients at the same time
created a wave; patients were all developing changes at the same
time. Opiates use for long time makes them safer than other sedatives,
that is part of tolerance. Reading in PDR about. Soma, that is
-29-

prodrug of Meprobamate, medication banned in 1970s because ,
of abuse and addiction, was reason to discontinue it in all patients.
DEA, instead warning physicians and petitioning FDA, was arresting
physicians for using it. Prosecutor Oakley in a gesture as if it was
a crime presented during trial that Petitioner prescribed Soma, but
did not show prescription or copy of it, but pointed to list of
medications prescribed by previous physician.
First sign was non-textbook back pain patients were reporting. Standard
examination of lower back, directed to bone structures was not correlating
well with patients reports of pain. Explanation came in September-OctoberNovember- December 2010. If raid of the clinic was conducted
3 months earlier, Petitioner would not solve the puzzle of massive
opiate use and discovery of the disease and role of BZDZs in
masking the symptoms.
-30-

Lowering of medications that led to elimination of overdose
mortality. was presented by prosecution as:
"Junkies and addicts were.coming to drug houses for dope".
(actual words used by prosecutor), indicating in opening and
closing statement that Petitioner is guilty, what took away from
Jury right to make a decision and gave the Jury function
of copycat and changed Justice system to prosecutorial dictatorship.
Using term pill-mill in closing statement without expalanation what
it means, when Petitioner's average daily volume was 26.7 patients,
spending 1 hour to 1 hour 45 minutes with new patients, writing
all prescriptions in the presence of the patients, except taking once
written prescriptions to patient's home, after reviewing her condition over
the phone - she became office manager after separating from Callihans
and purpose of the change was to look for offices to rent, and
establish plan to separate from Callihans.
-31-

Two critical issues during trial were:
1° - lay witness Steele testifying that named by prosecutor Oakley
patients were addicts, because they had withdrawal when deprived
medications. She took dependence that affects all chronic
pain patients to be in common language addiction. The FDA
Statement on April 9, 2019 is explanation for prosecution of
physicians for maintaining addiction, whereas it is dependence
affecting all patients, described in question #1.
2° - Government expert made mistakes giving testimony on urine toxicology
/not
tests, he did
know how to interpret the results. §3563e- Results
of drug testing, and §3583 (d) - Conditions of supervised release
have information on problems with instant readout urine tests.
Expert's errors are described in Doc #47 - Supplement to defense reply
brief of appeal and were not taken into consideration in appeal.
Above two issues invalidate prosecution, and were not presented to the Jury.
-32-

Performance of defense trial counsel and appeal defense counsel.
Trial attorney Mr. Cheselka was hired and agreed to take case to trial, but:
did not investigate even one witness, including key witnesses and did not
call anyone to testify
had another trial scheduled for next week
first during trial - arranged guilty plea conference and when that failed
entered into agreement with prosecutors to finish trial on February 13, 2015
Prosecutors to accomodate him cancelled testimony of several witnesses,
including urine laboratory technician
- refused to cross examine all witnesses and examined few when Petitioner
insisted to conduct some examinations pro se, but prevented cross examination
of government expert, which could have easily taken 1-2 days.
refused to present reduction of medications and discovery of a new disease
did not examine Petitioner on issues from expert witness testimony, as a result
expert testimony was not adversarily tested.
-33-

was suspended from practice for 2 years for other clients representation.

Appeal attorney Wettle:
never came to detention center close to Cincinnati and to prison in Ashland, KY
to talk to Petitioner
never called on attorney-client phone line
did not respond to 19 letters with case description, did not comment
raised only ? issues in appeal that were already adjudicated in Rule 33 Motion
in §2255 Motion several claims were denied by District Court, because not
raised on appeal, including case Arny v. United States (137 F Supp 3d 981, 6thDist)
refused to file panel and en banc rehearing when requested
filed unauthorized certiorari, what caused Petitioner's certiorari rejection
previously lost over 40 appeals and certioraris. His representation was
guaranteed failure. Public Defender's office did not disclose it to Petitioner.
Both attorneys were constitutionally ineffective, but courts did not
acknowledged it in §2255 Ground
-34-

REASONS FOR GRANTING THE PETITION

Petitioner found the way out of massive opiate use,, by lowering
and tapering medications, without overdose mortality, without switch
to heroin, fentanyl, and other drugs and documented it on patients
who previously were taking pain medications for years.
Comparing maps of distribution of opiates use per capita in Ohio with
incidence of, Rocky Mountains Spotted Fever cases which look very similar
Petitioner realized that the same vector transmits RMSF and chronic
pain causing disease, leading to massive opiates use for treatment of
pain. Within one year 2009-2010 Petitioner established protocol how to
lower and terminate medications used for chronic pain without mortality
and with patients approval in voluntary out-patient treatment.
Finding new disease Petitioner explained massive drive to medical
opiates use and found that traditional antibiotic is effective in
Fibfomyalgia scioto, how he named the disease.
-35-

Classical fibromyalgia was described as autoimmune disease causing
rheumatic symptoms.
Fibromyalgia scioto includes central nervous system involvement giving
headaches, memory loss, anxiety, panic attacks, depression, peripheral
neuralgia on top of "my whole body hurts", symptoms presenting differently
from patient to patient.
Trial was unfair by not allowing time for the defense and presentation
of Petitioner's work. Government expert was not cross examined, while
he made many errors of urine toxicology tests interpretation, he ap'parently
never worked with. Petitioner requested to cross examine expert, but was
denied right to self representation.
Where law enforcement explained clustering of cases as occuring because
of criminal minds of doctors and their patients, Petitioner found endemic
infectious disease.
-36-

Defense trial counsel liad next trial scheduled and arranged to finish
trial early, without conducting defense part. Prosecutors cancelled witnesses
to accomodate defense counsel need to leave early. He was suspended
from practice for two years by claims from his other clients.
Appeal counsel chose only two already adjudicated issues of trial counsel
ineffective assistance. Several other appealable issues were indicated in
appeal and denial of both §2255 Motions. Appeal counsel
lost also over 40 other appeals and certioraris he conducted, all of
them. Appeal was not fair.
District Court denied all Grounds in two recharacterized §2255
Motions. Court of appeals also denied COA.
Despite objective results of Petitioner's patient care (Petitioner was
only pain physician who lowered medications in 2010 and only one who
did not have patients mortality) and explanation of cause of massive
-37-

opiates use, Petitioner lost trial because of lack of adversarial
process, lack of defense expert and inability to cross examine government
expert witness. Defense attorney hardly ever objected and only for the
record, cross examined few witnesses only when after his refusal,
Petitioner wanted to cross examine himself.
The 4 questions refer to overbroad prosecution, that "closes the
legal window for chronic pain treatment" in the absence of
federal chronic pain treatment law, similar to Oregon Death
With Dignity Act established in Gonzales v Oregon after interpretive
rule which ended in clear legislation establishing new application
for opiates and other controlled substances use.
In the lack of legal distinction between §802-Addict and
chronic pain patient prosecutors use 106 years old law prohibiting
prescribing to addicts to prosecute for chronic pain treatment
-38-

established by States about 30 years ago, basing prosecution
on Moore(1975) treating patients without pain but addicted to
Schedule I heroin with unlimited supply of methadone, i.e. using
case law prohibiting treatment to close the window of chronic
pain treatment by converting §3741 (OH law) physicians into
§841 drug dealers.
Using also §846, 856, 1056, 841 - to describe Usual Course
of Professional [Medical] Practice of §1306.04 by retroactively
cancelling "driving license" after the accident, i.e. denying "Except
as authorized" clause after closing the clinic and opening §841 door
to drug trafficking with indictment.
Presenting cash acceptance as drug trafficking and acceptance of
insurance as insurance fraud closes the window of business side
of medicine in a strategy "heads I win, tails you lose".
-39-

How did it happen that physician who knew how
to modify chronic pain treatment, knew the law, was aware
of legal risks, was conducting practice with expectation of inspection,
converting renewal of medications into rescue mission, explaining
the mystery of massive opiate use by putting together medical
puzzle of subnoise signal detection of new disease, discovers
that innocent people serve the longest sentences? DNA may
be explanation; when cases prosecuted according to law and legal
process get reversed by one test, DNA, it indicates existence
of a flaw. Indication of that flaw in instant case is: when 8
physicians in a row certify by issuing prescription for opiates
that patient has indication for treatment and one or more of
them get prosecuted it implies system error. Probability of 8 physicians
in a row being wrong is billion times lower than probability of
DNA being wrong.
-40*** part below is added when retyping ***
It also indicates another problem:
Physicians are not prosecuted according to medical knowledge they have,
but according to what prosecutors consider to be prosecutable, but is not
medical knowledge , basing their actions on public opinion of the jurors
what is not medically sound.
A clash of two different cultures: one having patients best outcome
and other finding best way to prosecute.
Physicians and patients became victims of a war between medical
organizations establishing chronic pain treatment and another organization
that wanted to eliminate it into oblivion.

DEPARTMENT OF HEALTH & HUMAN SERVICES
1()C1nrr.ò'XiZnsc(Csi3Ccrtr°'
Atlanta, Georgia 30333

Par

Tick-Borne Rickettsia! Disease Case Report

Use for: Spotted fever rickettsiosis (SFR) including Rocky Mountain spotted fever (RMSF),
Ehrtichiosis (E. chaffeensis, E. ewingii, & under.), and Anaplasmosis (A. phagocyrophilum & under,).

it
I

CDC#

I

r I

Visit http://www.cdc.gov and use "Search" for complete Case Definition(s) or

[

(1,4)

Form Approved
OMB 0920-0009

visit the disease web site(s) for a fillable/dovvnloadable PDF version of this Case Report.

Date submitted:

04/14/2011

(9.2)
lfiT (7-8)
Physician's
name:
Christopher Stegawski

(mm/dtifyyyy)
Phone
no.:

440 781 6240

NETSS ID No.: (if reported)
Case ID (13-18)
1. State of residence:

2. County

Site (19-21)

State (22-23)

of residence: (26.50)

4. Sex: (60)

Cuyahoga

Postal
abiv:

(24-25)

Male 9 Unk

5. Date of
birth:

12/14/1949
(61-62) (63.64)

(mmfdd/yyyy)

6. Race:
(m) 1
2

(65-68)

Female

2ONO

White

ri American Indian
3LJAlaskan Native

saacific Islander

Black

anAsian

s EiNot specified

70 Ehrlichiosis - E. chaffeensis4

Undetermined

Ehrlichiosis - E. ewingii
(72)

9. Was a clinically compatible illness present? If too 8 no oreserxe of clnicalitness, then mis is not a use.
Clinical evidence - fever and one or more of the -following: rash (primarily SFR), headache,
myalgia, anemia, leukopenia (Ehrlich. &Maples.), thrombocylopenia, or elevated hepatic transaminases,
Eschar (aka tache noire) or black, necrotic area around site of known/possible tick bite present?
11. Was an underlying immunosuppressive condition present? ten

1[DYES

10. Date of Onset of Symptoms:

08/15/2010

ONO Clink

life-threatening complications in the clinical course of illness: (8.2)

inAdult respiratory distress syndrome (ARDS)

Specify condition(s):

(mmitid/yyyy)

(73.80)

IOYES 20NO 9QUnk

12. Specify any

20NO 9121Unk

7. Hispanic 1 [jYes
ethnicity: 20 No
(70)
9 0 Unk

3DAnaplasmosis - A. phagocytophrium s fa Ehrlichiosis/Anaplasmosis -

SFR (including RMSF)
8. Indicate Disease (Presumed)To Be Reported: (71)

DYES

YES

History of travel outside county of residence within 30 days of onset of symptoms?:

sOMeningitis/encephalitis

20 Disseminated intravascular coagulopathy (DIC) 40flenal failure

9

None

aClOther:
13. Was the patient hospitalized because of this illness? (83) (If yes, date)

YES

-1

2

NO

oEjUnk

14. Did the patient die because
10YES

(rnmiddryyyy)
(84.85) (86-87)

pern)

Serologic

Serology 1

Tests

State:

(105-8)
Positive?

) i

(

IFA - IgIVI

COLLECTION DATE Imm/dd/yyyy)
Serology 2*

(101.2 (103-4)

Titer

WA - IgG

YES 2

Titer

NO nin

(109.10) (111-12)
(113.15)
Positive?

(_____) 1 IYES

(_ _ _

) t IVES 2 SENO (119)

(

_) 1

YES

2 ,2 NO (125)

(

) -"VES

(

) 1

EYES

2 1 NO p39

lOYES

20N0 (137)

2 ENO (1 3I)

* Was there a fourfold change in antibody titer between the two serum specimens?

18. Classify case BASED ON the CDC case definition (see criteria below):
130)
2
hrlichiosis -f. chatleertsis
SFR (including RMSF)
Ehrlichiosis - Eewingii

Ehrlichiosisillnaplasmasis - Undetermined

Zip:

-

Positive?

(liseik 16.51 kuccikhorict)
PCR

1 [DYES 20N0 (133:

Morulae visualization*

(DYES 20NO (134:

Immunostain

lOYES 2 ONO (las,

Culture

(DYES 20NO 036

* Visualization of more ae not applicable for SFR,

State Health Department Official who reviewed this report:

1 OCONFIRMED
2

17. Other Diagnostic Test?

(to)

DPROBABLE

Name:
Title:

Date:
(mmidd/yyyy)

nso.urn
COMMENTS:
This

20NO pun

(121-130

Anaplasmosis -A. phagocytophilum 4

(ramiddiyyyy)
197.100)

ONLY if the test or procedure was performed. Lack of selection indicates that the test or procedure was not performed.
COLLECTION DATE (mrniddiyyyy)

16.

3

e Unk

City:

Below, indicate Y (Yes) or N (No),

(If yes, date)

193-94) (95-90)

15. Name of
laboratory:

Other
test

2 DNO

of this illness?(92)

is a case of new disease (rickettsial) which presents as fibromyajgia (Scioto) and responded to antibiotic

Cfirmed SFR (including RIVISF):
c
compatible case with evidence of a fourfold change
A ethnically h SFR antigens by WA between paired serum
ConG antibody titer reactive with Rickettsia &Relis

Confirmed Ehrlichiosis/Anaplasmosis: A clinically compatible case With evidence of a fourfold
change In 156 antibody titer reactive with EhrItchia challeensis or Anaplasma phagocylophi tom antigen try
specimens, one taken during Co first week of illness and a second 2-4 weeks later, OR detection of R. rickettsia?
IFAdetection
between Of
paired set nmSpecimens (one taken during the first week of illness and a second 2-4 weeks later)
or other SFR DNA in a clinical specimen via amplification of a specific target by PCR assay, OR demonstration of OR
E. chatleensis or A. phagocytophition DNA in a clinical specimen via amplification of
SFR antigen in a biopsy/autopsy specimen by IHC, OR isolation of R. rickettsia or other SFR species from a
a
specific
target
by PCH assay, OR demonstration of ehrlichial or anaplasmal antigen in a blospyialdOpsy
clinical specimen in cell ditto re.
specimen by RIC, OR isolation of E chaffeensis or A. plzagocytoptiihnnitom a clinical specimen in cell culture.
A clinically compatible case with evidence of elevated IgG or

Probable SFR (including RMS9:

IgM antibody reactive with R. rickeksii or at er SFR antigens by IFA, enzyme-linked immunosorbent assay (ELBA),
dot-ELISA, or latex agglutination (CDC uses air IFA Ig6 cutoff of ;?...1:64 and dues nut use Ight test results as
independent diagnostic support criteria).
Note: Current commercially available ELISA tests cannot evaluate changes in antibody liter. IoM tests may be
unreliable because they lack specificity. IgM antibody may persist for lengthy periods of time. When sera
demonstrate elevated antibody responses to multiple infectious agents among rickettsia! species, and between
ehrtichial and anaplasmal species, the treater antibody response is generally directed at the actual agent Involved.

Probable Ehrlichiosis/Anaplasmosis: A clinically compatible case with evidence of elevated IgG
or 19M antibody reactive with E. chatteemis or A. phagocytopkikAnantigen by IFA, enzyme-linked immunosorbent
assay (ELISA), dot-ELISA, or assays in other formats (CDC uses an WA IgG cutoff of L.1:64 and does not use glut
test results as independent diagnostic support criteria.), OR identification of morulae in the cytoplasm of monocytes
or rrracrophages(Ehrlichiosis) or in the cytoplasm of neutrophils or easinaphils (Anaplasmosis) by microscopic
examination.

Public reporting burden of this collection of information is estimated to average 10 minutes per response. An agency may not conduct or sponsor, and a person is not required to respond to,
a collection of information unless it displays a currently valid OMB control number. P10850 send comments regarding this burden estimate or any other aspect of this collection of information,
including suggestions for reducing this burden, to CDC/ATSOR Reports Clearance OffiCcri 1600 Clifton Rd., NE (MS 0-74); Atlanta, GA 30333; ATTN: PRA (0920-0000).
CDC 55.1 (E), Revised October 2009, CDC Adobe Acrobat 9.1.3. Electronic Version, October 2009
2nd COPY — CDC

TICK-BORNE RICKETTSIAL DISEASE CASE REPORT •

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date•

utvi. altutv 34-eicte.gr.ic
rd v4 ctvi t(( c2A9 1,1

